                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




    OIG Evaluation of the 2010 Social Innovation
   Fund Grant Application Review Process (GARP)

                     OIG REPORT 11-17




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on August 19, 2011. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than February 20, 2012, and complete its corrective actions by August 20,
2012. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                        August 19, 2011


TO:            James Siegal
               Chief of Staff

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-17
               Evaluation of the 2010 Social Innovation Fund GARP


Attached is the final report on the OIG’s Evaluation of the 2010 Social Innovation Fund Grant
Application Review Process. This evaluation was conducted by OIG staff in accordance with
the Quality Standards for Inspection and Evaluation issued by the Council of Inspectors General
on Integrity and Efficiency.

Under the Corporation’s audit resolution policy, a final management decision on the findings and
recommendations in this evaluation report is due by February 20, 2012. Notice of final action is
due by August 20, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment


cc:     Robert Velasco II, Acting Chief Executive Officer
        Paul Carttar, Director, Social Innovation Fund
        Doug Hilton, Office of General Counsel
        Vielka Garibaldi, Office of Grants Policy and Operations
        Claire Moreno, Audit Liaison, Office of Grants Management
        Jack Goldberg, Audit Resolution Specialist
        Selected Members of Congress (under separate cover)




                   1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                        Senior Corps  AmeriCorps  Learn and Serve America
                                                              CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Background ........................................................................................................................ 2

Results of Evaluation .......................................................................................................... 3

Objectives, Scope, and Methodology ................................................................................ 10

Exit Conference ................................................................................................................. 11



Appendix

A: Corporation’s Response to Draft Report (to be included in final evaluation report)



                                                       TABLE OF ACRONYMS

                        CEO                  Chief Executive Officer
                        COI                  Conflict of Interest
                        Corporation          Corporation for National and Community Service
                        COO                  Chief Operating Officer
                        GARP                 Grant Application Review Process
                        NOFA                 Notice of Funding Availability
                        NOFO                 Notice of Funding Opportunity
                        OGC                  Office of General Counsel
                        OGPO                 Office of Grants Policy and Operations
                        SIF                  Social Innovation Fund
                                       EXECUTIVE SUMMARY

In response to requests from Congress and the Corporation’s Chief of Staff, we conducted an
evaluation of the Corporation’s 2010 Social Innovation Fund (SIF) Grant Application Review
Process (GARP).

We determined that the GARP policies and procedures applied to the new SIF program
generally appeared to be fair and objective, particularly with respect to the first two stages of the
review process (the blended, or expert stage; and the evaluation stage). However, for the third
late stage review, in which final grant award funding decisions were made, the Corporation was
unable to provide us with sufficiently detailed documentation to allow us to evaluate the fairness
and objectivity of that particular stage. In some cases, the Corporation deviated from its existing
process in ways that were not consistent with established procedures used for other grant
award programs. These deviations were attributed by Corporation officials to the fact that SIF
was a new program which required an application review and award protocol that differed from
those used with the Corporation’s other long-established service programs.

We determined that media reports of Corporation staff instructing grant application reviewers to
shred SIF-related documentation were unfounded, as the destruction of certain documents for
security and privacy purposes at the conclusion of GARP activities was standard practice for the
Corporation. The Corporation directed reviewers to dispose of the applications at the completion
of their reviews because of the Corporation’s need to maintain confidentiality. The Corporation
informed reviewers that their participation in GARP gave them access to information not
generally available to the public and placed the reviewers under special professional and ethical
responsibilities. Reviewers were given access to information about applicants for use only
during the evaluation process for the purpose of discussion with fellow panelists and
Corporation personnel. Therefore, reviewers were instructed that they must not use that
information for personal benefit or make it available for the benefit of any other individual or
organization. The Corporation has made efforts in its 2011 SIF GARP to provide further
clarification on a reviewer’s responsibility in maintaining confidentiality of review documentation.

The Corporation developed a policy, effective January 1, 2011, to address issues raised by
Congress regarding the transparency of GARP. This policy describes procedures, applicable to
all Corporation programs, to increase transparency in the grant application review process. It
outlines the roles and responsibilities of Corporation offices that are responsible for ensuring the
integrity of information relating to the GARP process. It also establishes a consistent list of
documents related to the review process, and includes a timeline for making these documents
available to the public for every grant competition conducted by the Corporation. This policy
was not in effect during the 2010 SIF GARP.

Areas of concern that emerged during our evaluation are as follows:

   1. Corporation staff participated in reviewing two applications during the GARP expert
      review phase;
   2. Need for enhancements to the Reviewer Recruitment Process;
   3. Final decision to award 11 grants was not fully documented;
   4. No formal policy exists for defining the roles and responsibilities of Corporation staff in
      reviewing conflicts of interest for participants in the review process;
   5. No formal policy on Corporation staff contact with potential grantees during GARP; and
   6. The existing Corporation GARP did not include procedures on issuing a Notice of
      Funding Availability (NOFA) to obtain public input.

                                                 1
                                             BACKGROUND

The Social Innovation Fund, enacted under the Edward M. Kennedy Serve America Act of 2009,
is designed to provide a combination of Federal grants and private funds to create and expand
effective solutions across three issue areas: economic opportunity, healthy futures, and youth
development and school support. Initiatives created by the SIF are to directly impact low-
income families and also serve as models of service that may be duplicated in communities
across the country. SIF grant recipients are required to provide matching funds amounting to $3
for every $1 in Federal grant funds.

During its initial year in 2010, Congress appropriated $50 million for the SIF. After holding a
number of planning meetings, which included input from staff and other stakeholders, the
Corporation issued its NOFA on February 16, 2010. As of the deadline on April 8, 2010, the
Corporation had received 69 applications, 54 of which were deemed compliant with the basic
SIF requirements.

The Corporation then implemented a three-stage review over a three-month period, utilizing
more than 60 non-Corporation experts with extensive experience as social innovators, nonprofit
directors and evaluators as external reviewers. During the blended (expert) and evaluation
stages of review, the applications were assessed against the full set of criteria published in the
NOFA, and were evaluated based on their program design, organizational capacity and budget.
In the final stage of the review, senior members of the Corporation’s staff were joined by
external reviewers to assess the qualities of the top rated applications.

The Corporation’s SIF Director was recused from consideration of any application that included
his former clients or employers during the preceding two years, and was removed entirely from
the selection of the final SIF grantees. The Corporation’s former Chief Executive Officer also
did not participate in the selection process. He was recused after the Corporation received a
notice of intent to apply for a SIF grant from an organization with which he had had a previous
business relationship.
Of the 54 compliant applications considered, 16 advanced to the third phase of the review. The
final 11 SIF grant awardees were notified on July 13, 2010, and were formally announced at
Corporation Headquarters on July 22, 2010. The grantees were as follows:


        Jobs for the Future, Inc. ($7.7 million; 2-year grant)

        Local Initiatives Support Corporation ($4.2 million; 1-year grant)

        Mayor’s Fund to Advance New York City ($5.7 million; 1-year grant)

        REDF ($3 million; 2-year grant)

        Foundation for a Healthy Kentucky ($2 million; 2-year grant)

        Missouri Foundation for Health ($2 million; 2-year grant)

        National AIDS Fund ($3.6 million; 1-year grant)



                                                    2
       New Profit, Inc. ($5 million; 1-year grant)

       The Edna McConnell Clark Foundation ($10 million; 1-year grant)

       Venture Philanthropy Partners ($4 million; 2-year grant)

       United Way of Greater Cincinnati ($2 million; 2-year grant)




                                      RESULTS OF EVALUATION

Finding 1.    Participation of Corporation staff to review applications during the GARP
              expert review phase.

   The initial phase of review for the 54 compliant applications was known as the blended
   (expert) phase. The experts (in most cases, three per panel) worked on 16 panels to assess
   applications against the full set of vetting criteria in the NOFA. The 16 panels were divided
   into two groups of eight and organized by two factors: issue area and size distribution,
   allowing each of the 54 applications to be considered twice.

   However, during our evaluation, we found that two applications were reviewed differently
   than all others during this phase. The applications were reviewed by one expert panel and
   by Corporation staff. All other applications were reviewed by two expert panels.

   One of the two applications reviewed by Corporation staff initially was determined to be out
   of compliance because of a shortage of available matching funds. The grant applicant
   initially did not meet the program’s match requirement because one of its match letters
   proposed to contribute an unspecified amount. This was later clarified during a compliance
   briefing with the applicant. The applicant verified that the “undetermined amount” the match
   sponsor was willing to provide was any remaining amount needed to meet the match
   requirement. Once the compliance decision was reversed, the grant application was
   assigned to a panel after the review was underway. However, because of the time
   restrictions that the panels were under, several reviewers from other potential panels voiced
   concern that they were unable to accept an additional application at that time. The
   Corporation was therefore unable to assign the application to a second panel because it did
   not want the applicant to potentially receive an unfair or inflammatory review by a
   disgruntled panel with insufficient time to perform its function.

   The other application, reviewed by Corporation staff, was initially assigned to two panels
   during panel assignments. However, an error was made when the panel assignments and
   applications were provided to the panel members. The application was erroneously omitted
   from the panel’s review package. Near the conclusion of the review, OGPO staff identified
   the error, and arrangements were made for a panel comprised of Corporation staff to
   convene and perform the second review.

   Because the SIF-GARP project had a very stringent prior experience requirement for the
   external reviewers, and the level of conflicts of interest, time commitments and schedule
   conflicts required some recruited reviewers to drop out, it did not appear that the
   Corporation had sufficient time to recruit additional external reviewers to address these two
   applications.

                                                      3
   As the Corporation placed heavy emphasis on having an appropriate SIF and non-profit,
   philanthropic, and public sector background to become a reviewer, allowing Corporation
   staff to review these grant applications during one phase of the review could give the
   appearance that these two applications could potentially not be given the same quality of
   review as all other grant applications. To mitigate an appearance of unfairness, the
   Corporation used experienced staff that had been involved in other Corporation GARP
   reviews.

Recommendation

   1. The Corporation should secure alternate reviewers who would be available during the
      grants application review process. In addition, it should develop a policy to address use
      of Corporation staff to review applications when recruitment issues arise and alternate
      reviewers cannot be obtained.

Corporation Response

The Corporation generally concurs with the recommendation. It stated that during its FY 2011
SIF grant competition, it recruited alternate reviewers, which proved to be effective. The
Corporation plans to revise its Grant Application Reviews: Procedures Manual (GARP
Procedures Manual) to address how staff will be utilized when there are not enough external
reviewers due to extenuating circumstances.

OIG Comment

The Corporation’s response satisfies the intent of our recommendation.


Finding 2.    Improvements needed in recruitment of SIF external reviewers.

The SIF Peer Review Recruitment process was a unique activity relative to the established
GARP. The Corporation departed from its existing reviewer database to compile a completely
external reviewer pool by seeking reviewers who had a specific background. Corporation staff,
and at least one member of the Corporation’s Board of Directors, believed that the existing
GARP procedures did not fully meet the needs of the new SIF program.

During our interviews with a sample of 23 external SIF reviewers, 15 expressed concern that
they were not given adequate time to review the applications assigned to them. The quality of
reviews could be adversely impacted by not allowing adequate time for reviewers to perform
their duties.

We found that 11 out of 23 reviewers had Harvard University affiliations. Focusing on reviewers
with affiliations at one location could prevent the Corporation from obtaining a wider breadth of
expert knowledge of and insights into SIF programs.

In October 2010, the Corporation conducted a debriefing on the 2010 SIF GARP in which it
identified improvements needed in its recruitment of reviewers. Reforms for the 2011 SIF
GARP included initiating reviewer recruitment and selection at least three months before
reviews started. In addition, it planned to develop a database of qualified reviewers and post a
public call for reviewers.

                                               4
We observed that requirements for reviewer recruitment were not always followed. Two out of
23 sampled reviewers whom we interviewed did not have the requisite 10 years of nonprofit or
social innovation experience.         The Corporation’s recruitment announcement outlined
requirements that a reviewer should have 10-plus years of relevant leadership experience in the
nonprofit, philanthropic or public sectors.

Furthermore, it did not appear that the Corporation verified information submitted by all
reviewers in their profiles. In its recruiting instructions, the Corporation required reviewers to
submit/update their Reviewer Profile contact information and experience in eGrants1.

Two reviewers did not complete their reviewer profiles in eGrants and there was no resume in
eGrants for one reviewer. OGPO staff stated that they made several requests that all review
participants submit their profiles in eGrants. One reviewer did not receive payment for services,
and OGPO staff stated that may have affected the reviewer’s compliance. Regarding the
reviewer who did not enter any information in eGrants, Corporation staff stated that this reviewer
was especially difficult to contact throughout the Late-Stage review, and did not physically come
to the Corporation for the discussion (participated by phone), so their numerous efforts to collect
required documents were unsuccessful.

Absent more stringent controls, inexperienced reviewers not meeting the minimum requirements
could be allowed to participate in the review process, thereby undermining the integrity of the
process and the public’s confidence in the fairness of the SIF grantee selections.

Recommendations

    2a. The Corporation should validate the experience of all reviewers, and should ensure that
        reviewers submit required documentation prior to participating on a review panel.

    2b. The Corporation should update its existing GARP procedures by incorporating
        suggestions related to SIF reviewer recruitment outlined in its October 2010 debriefing,
        to include: recruiting reviewers in a timely manner; developing a database of qualified
        SIF reviewers; and recruiting reviewers by posting a public call via its website.


Corporation Response

The Corporation generally concurs with the recommendation. It stated that it enhanced its
recruitment process during the FY 2011 SIF process by expanding its outreach to potential
reviewers and issuing a public call for potential reviewers on its website. In addition, it required
all potential reviewers to have a comprehensive resume reviewed by OGPO before being
invited to participate as a SIF expert reviewer. The Corporation will update its existing GARP
Procedures Manual to fully describe its recruitment process.

OIG Comment

The Corporation’s response satisfies the intent of our recommendation.


1
 OGPO staff stated that the eGrants database is the source that is utilized to ensure documentation of a reviewer’s
participation, and serves as the mechanism for initiating payments for reviewer services.

                                                         5
Finding 3.      Final decisions to award 11 SIF grants were not fully documented.

The Senior Advisor for the SIF Program had been delegated the authority as grantee selection
official because the Corporation’s former CEO and the SIF Director had been recused to avoid
the appearance of a conflict of interest. The Senior Adviser used a series of meetings with
senior Corporation staff to determine which applicants would be funded after each review
phase. The three phases were designated as the (a) blended (also referred to as expert)
phase; (b) evaluation phase; and (c) late stage review phase. The blended review used experts
to assess applications against the full set of criteria in the NOFA. The evaluation phase used
reviewers to focus on the use of evidence, data and evaluation (a sub-set of the NOFA criteria).
The late stage review involved three external experts and senior Corporation staff. They
examined and provided input on each remaining applicant based on the portfolio criteria in the
NOFA with an emphasis on four dimensions: (1) strength of relationships and collaborations, (2)
opportunity for scale, (3) potential to impact public discussion, and (4) the rigor of sophistication
of evidence and evaluation.

After the blended (expert) review, a consensus meeting was held on May 14, 2010, at which it
was determined that 31 applications would advance to the evaluation phase from a group of 54
compliant applications. The meeting was conducted in two parts because of the SIF Director’s
and the SIF Strategic Advisor’s recusal from discussion of the application for New Profit, Inc.
The SIF Director was an Executive Partner of New Profit Inc., while working as a salaried
employee of Monitor Group, a consulting firm. The SIF Director presented the results from the
evaluation review excluding New Profit. The Senior Advisor presented the results from the
review of New Profit. These decisions were documented and justifications were provided
determining whether an application would advance.

After the evaluation review, the Corporation held another consensus meeting on June 3, 2010,
in which it was determined that 16 applications would advance for further review in the late
stage review phase. The meeting was also conducted in two parts because of the above-
mentioned recusals. Again, the SIF Director presented the results from the evaluation review
excluding New Profit, and the Senior Advisor presented the results from the review of New
Profit. These decisions were documented and justifications were provided about whether an
application would advance.

During the late stage review conducted June 9, 2010, the Corporation included four expert
reviewers to participate in discussions with Corporation staff focusing on the remaining 16
applications. Each expert reviewer was assigned, along with Corporation staff, to participate on
one of four panels. The focus of the meeting was to develop the portfolio of grant applications
to determine the final selection of applicants to be awarded the inaugural group of grants. No
ratings were assigned to the applications. Each panel provided different perspectives on their
assigned applications.

In a PowerPoint presentation to Senior Managers, it was stated that the ideal SIF portfolio would
leverage the individual strengths of applicants and create the most robust network and “learning
community” of grantees possible. The Corporation developed a Basic Portfolio Criteria chart
which reflected what applications addressed each criterion, and that chart was used as a
reference for discussions. The three major areas of focus were (a) geography; (b) the type of
SIF program; and (c) the leveraging of additional resources and grant amount requested.



                                                 6
Corporation staff stated that each application that made it through this stage of the review
process was fundable (i.e., each application had an equal chance of being awarded a SIF
grant). The identification of the selected applicants focused on their best/unique value to the
SIF portfolio on the basis of the criteria considered and expected outcomes that were stated in
the NOFO. However, in our review of the meeting notes from the late stage review, the
Corporation could not provide documentation to demonstrate how it determined its final decision
to award the 11 grants that were ultimately funded. In addition, the Corporation performed an
analysis in which it assessed the strengths and weaknesses of the five non-funded SIF
applicants. But this analysis made no mention of the strengths and weaknesses of the 11
funded applicants. No rationale was provided as to why the five non-funded applications did not
fit into the Corporation’s final portfolio, despite the fact that four of the five unfunded applications
had received a rating of “satisfactory” during the evaluation phase.

On June 17, 2010, a pre-decision meeting was held in which Corporation staff approved the
funding of 11 grants. Documents from that meeting make no mention of the five applicants that
were excluded from the final portfolio.

The Corporation does not have a policy on documenting its award decisions. Therefore, final
decisions on SIF awards were made without being fully documented. Without maintaining
complete documentation at each stage of review, Corporation management will not have access
to all historical data on SIF grant decisions which would assist in making future SIF decisions.
Maintaining such documentation was especially critical for this inaugural group of grantees
because the former CEO and SIF Director had been recused from the majority of the GARP
decision-making.

Recommendation

   3. The Corporation should develop policies to ensure that its decisions regarding grant
      awards are fully documented.

Corporation Response

The Corporation agreed that the FY 2010 Late Stage review process did not have the same
level of documentation as the other review stages. It did not believe there was a need, or
adequate time, to develop documentation similar to the other reviews in the FY 2010 GARP
because the initial meeting to develop the final portfolio of grantees occurred immediately after
the Late Stage review meeting. Both meetings included the same Corporation officials. The
Corporation did not document each possible portfolio combination of grantees because it was
impractical to do so. Because the FY 2010 competition was creating the inaugural SIF portfolio,
it was not feasible to develop this type of documentation.

During the FY 2011 SIF grant competition, the Corporation fully documented its rationale for
excluding one application that advanced to the clarification stage (the last stage prior to
approval for funding).

Regarding the OIG’s recommendation to develop policies to ensure that all decisions are fully
documented, the Corporation believes that its internal policy, Funding Approval Policy (CPO-
2009-01-2011-5) and the procedures specified in the GARP Procedures Manual adequately
addresses the recommendation.



                                                   7
OIG Comment

We acknowledge that the Corporation has made efforts in its FY 2011 SIF competition to
document its final award decisions. However, we do not believe that its existing policies fully
address Recommendation Number 3. We recommend that the Corporation document its
procedures for maintaining documentation for its decision process at every review phase. The
Corporation’s decision to award a SIF grant cannot be fully transparent unless it implements
and follows policies and procedures requiring that all documentation be maintained for
successful and unsuccessful applicants. The Corporation stated that during the 2011 SIF
competition, it maintained documentation for its grant decisions to an extent that should mitigate
our concerns.


Finding 4.     No formal policy exists for defining the roles and responsibilities of
               Corporation staff in reviewing conflicts of interest for participants in the
               review process.

The Corporation requires reviewers (external and internal) to complete a Conflict of Interest
(COI) statement. COIs are reviewed at various stages during GARP. During the SIF GARP,
the review of COIs was conducted by the program office and the OGPO. In the past, this
function had been centrally located with OGPO. OGPO staff had not received official training on
reviewing COIs, but when questions arose, they sought advice from the Office of General
Counsel (OGC). There is no formal Corporation policy on reviewing COIs submitted by
reviewers. In addition, there is no policy that identifies which Corporation office is responsible
for conducting the review of COIs.

Prior to participating in the GARP review, all reviewers were provided COI instructions directing
them to examine their assigned applications to check for possible conflicts of interest, and to
sign the COI form and return it within 12 business hours from the time of receipt. During the SIF
GARP, OGPO asked reviewers during their orientation to send an e-mail notifying the
Corporation immediately of any potential COIs. In addition, OGPO staff asked the reviewers to
document on the COI forms any issues that they had previously raised and how those issues
were addressed. We found seven instances in which COIs were disclosed on the COI forms for
reviewers, and one instance for a staff facilitator. Our review of the COI disclosures found that
some had been signed as being reviewed by Corporation staff after the SIF review process had
begun and, in some instances, after it had ended.

SIF program staff maintained a spreadsheet of COIs; however, the spreadsheet did not identify
at which phase of the SIF process reviewers’ conflicts, if any, had been evaluated.

During our interviews of a sample of 23 reviewers, we found that three had conflicts that were
not reflected in the spreadsheets or on the COI forms. In addition, we found instances in which
external reviewers who had identified potential COIs had to be removed from a panel after the
application review process was underway, thus causing a disruption to the panel. It appears
that some reviewers did not follow instructions by disclosing conflicts on the COI forms that they
had previously identified by e-mail.

Requiring reviewers to provide both an e-mail and a COI form appears to be duplicative.
Reviewers with COIs could be using only one method of identifying conflicts, and if those
conflicts are reviewed by OGPO or program staff, COI information may not be reconciled in one
central location and tracked properly.

                                                8
Recommendation

   4. The Corporation should formalize its procedures for evaluating reviewer conflicts of
      interest. It should identify the responsible office for conducting reviews of conflicts of
      interest and detail the steps that will be performed by the individual reviewing the COI.
      Also, the Corporation should ensure that training is provided to staff members within the
      identified responsible office.

Corporation Response

The Corporation generally concurs with the recommendation, and stated that its existing GARP
Procedures Manual outlines its practices and procedures for reviewing conflicts of interest. In
addition, OGPO is responsible for conducting reviews of the possible conflicts, with consultation
with OGC as needed. Since the 2010 SIF application process, the Corporation has drafted a
more detailed set of procedures entitled, Conflict of Interest Procedures for External Peer
Review, which will be finalized soon.

OIG Comment

The Corporation’s response satisfies the intent of our recommendation.


Finding 5.  No formal policy on Corporation staff contact with potential grantees
during GARP.

During the course of the 2010 SIF application review, the Corporation had no policies or
procedures to address Corporation staff contact with potential grantees. On February 18, 2011,
the former COO issued an e-mail providing guidance to Corporation staff on Communicating
with Grantees and Applicants during the Grant Application Review Process. Prior to this
guidance, the Corporation had not considered the extent to which its staff might have contact
with potential grantees. Absent a formal policy and proper controls, Corporation staff could
inadvertently provide non-public information regarding GARP activities to potential grantees that
could result in a competitive advantage for a particular applicant.

Recommendation

   5. The Corporation should formalize the guidelines identified in the former COO’s e-mail,
      dated February 18, 2011, by issuing a standard Corporation policy.

Corporation Response

The Corporation generally concurs with the recommendation. It has plans to expand existing
procedures and principles outlined by the Chief Operating Officer’s guidance by developing a
policy to be adopted in time for the FY 2012 grant competitions.

OIG Comment

The Corporation’s response satisfies the intent of our recommendation.



                                               9
Finding 6.    Existing Corporation GARP did not include procedures on issuing a NOFA
              for public input.

The initial draft NOFA was sent out to solicit public input. This had not been done for any other
NOFA, and the existing GARP did not include procedures on issuing the NOFA for public input.
Because the SIF program was new to the Corporation, its staff, and at least one member of the
Corporation’s Board of Directors, believed that the existing GARP procedures did not fully meet
the needs of the new program.

Without standard procedures on issuing the NOFA for public input, Corporation management
may not be aware of the roles and responsibilities of its staff in issuing, reviewing, and
incorporating public input into the final NOFA.

The Corporation had a debriefing in October 2010 on the inaugural SIF GARP process in which
it identified areas that needed improvement. During the debriefing, the Corporation made plans
to continue distributing the NOFA to obtain public input.

Recommendation

   6. The Corporation should update its existing GARP procedures to define management’s
      intent in using public input for the SIF GARP. These procedures should include, but not
      be limited to, which Corporation office will be responsible for tracking and reviewing the
      comments. In addition, the Corporation should outline which office will be responsible
      for initiating any changes to the NOFA as a result of the input received.

Corporation Response

The Corporation concurs with the recommendation. It has plans to update its Policy CEO-100-
2011-14, (Policies and Procedures for Working with the Office of the Executive Secretariat), and
the GARP Procedures Manual to reflect its processes for soliciting public input in future draft
SIF Notices.

OIG Comment

The Corporation’s response satisfies the intent of our recommendation.


                            OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this evaluation, communicated in the October 6, 2010, notification letter to
Corporation management, was to determine whether the Corporation’s GARP policies and
procedures are fair and objective, and consistent with applicable laws and regulations. We
specifically examined GARP policies as they related to the 2010 SIF grant competition
(designated by the Corporation as “SIF-1”). We conducted our review in accordance with the
Quality Standards for Inspection and Evaluation issued by the Council of Inspectors General on
Integrity and Efficiency.

The evaluation standards required us to plan and perform the evaluation, obtain an
understanding of the Corporation’s GARP process, and review its existing policies and
procedures. We interviewed SIF program staff, OGPO staff, and other Corporation staff
involved in the review process. We judgmentally selected 28 external peer reviewers to

                                               10
interview. Twenty-three of the external reviewers responded to our request. We interviewed
those reviewers to obtain an understanding of their involvement during the GARP process,
determine if any conflicts of interest existed, and how they were resolved. We assessed the
results from the panel reviews of each SIF application.
We reviewed supporting documentation related to the decision making process for the final SIF
grant awards. We reviewed media reports concerning the inaugural group of SIF awards, and
followed up with the Corporation on the disposition of any allegations or concerns expressed in
those reports. We corroborated those concerns during our interviews with the SIF reviewers.
We conducted our evaluation fieldwork between November 2010 and May 2011.

                                       EXIT CONFERENCE

We conducted an exit conference with Corporation representatives on May 31, 2011. The
Corporation’s response to the draft report is included in its entirety in Appendix A.

This evaluation report is intended solely for the information and use of the OIG, the Corporation,
and the U. S. Congress, and is not intended to be and should not be used by anyone other than
these specified parties.


 /s/ Stuart Axenfeld (signature on original)
___________________________________________
Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service
August 19, 2011




                                               11
                         APPENDIX A
_______________________________________________________________
             CORPORATION FOR NATIONAL AND
                    COMMUNITY SERVICE

              RESPONSE TO THE DRAFT REPORT
NATIONAL&!
COMMUNITY
SERVICEttte


   TO:            Stuart Axenfeld
                  Assistant Inspector General for Audit



   FROM:          Paul Carttar, Director, Social Innovation Fund

   DATE:          August 8, 2011

   SUBJECT:       Response to Draft Report: OIG Evaluation of the 2010 Social Innovation Fund
                  Grant Application Review Process (GARP)

   Thank you for the opportunity to review the Draft Report: OIG Evaluation of the 2010 Social
   Innovation Fund Grant Application Review Process (GARP) ("Draft Report"). We agree with
   OIG's overall conclusion that the Corporation's FY 2010 Social Innovation Fund grant
   competition was fair and objective. In addition, we acknowledge the technical matters and
   opportunities for improvement included in OIG's findings. In many cases, OIG identified
   matters which we have already addressed in the FY 2011 Social Innovation Fund ("SIF")
   competition. In other cases, the matters raised by OIG were included in more general
   improvements to the Corporation's Grant Application Review policies, procedures and
   processes. We are responding to all recommendations at this time. Below are our responses to
   the specific findings in the Draft Report.

   Finding 1 - Participation of Corporation staff to review application during the GARP
   expert review phase.

   Corporation Response: As noted by the OIG, the need to use Corporation staff during the
   expert review phase was an unexpected complication of the FY 2010 SIF competition. The
   Corporation agrees that it should recruit alternate expert reviewers in future SIF grant
   competitions. For the FY 2011 SIF grant competition, the Corporation recruited qualified
   alternate reviewers and had those alternates complete the same orientation sessions conducted for
   all reviewers. This process proved to be effective during the FY 2011 SIF expert reviews, and
   the Corporation will revise its Grant Application Reviews: Procedures Manual ("GARP
   Procedures Manual") to include procedures on the recruitment and orientation of alternate expert
   reviewers.

   The Corporation uses various review models, some of which specifically contemplate staff
   participation. The GARP Procedures Manual will be updated to specifically address how staff
   can be utilized when staff participation was not originally called for, but there are not enough
   external reviewers due to extenuating circumstances.




                 Senior Corps   * AmeriCorps * Learn and Serve America
 1201 New York Avenue, NW   * Washington, DC 20525 * 202-606-5000 * www.nationalservice.gov
  Finding 2 - Improvements needed in recruitment of SIF external reviewers.

  Corporation Response: The Corporation agrees that the SIF expert reviewer recruitment
  process needs to ensure public confidence in the overall quality of the SIF GARP process. The
  FY 20 II SIF process included significant enhancements to the recruitment and selection of
  potential reviewers. Recruitment included expanded outreach to potential reviewers and a public
  call for potential reviewers on the Corporation s website. All potential reviewers had a
  comprehensive resume review by the Office of Grants Policy and Operations before being
  invited to be a SIF expert reviewer. In the FY 2011 SIP GARP process, reviewers were given
  more time to conduct the reviews, were given fewer applications to review, and their review
  process was streamlined. The Corporation will update the GARP Procedures Manual to fully
  describe the recruitment process.

  Finding 3 - Final decisions to award 11 SIF grants were not fully documented.

  Corporation Response: The Corporation agrees that the FY 201 0 Late Stage review process
  did not produce the same level of documentation as the other review stages. This occurred for
  several reasons specific to the circumstances surrounding the tY 2010 SIF GARP. First the
  Late Stage review process took place at a meeting of the external and internal reviewers, which
  was immediately followed by a separate meeting of the SIF staff and the sen ior Corporation
  officials who participated in the Late Stage review. This second meeting began within minutes
  of the Late Stage review meeting, with the same Corporation staff present (lhe Late Stage expert
  reviewers did not participate in the second meeting). During this second meeting-and through
  some additional discussions among SIP and senior Corporation staff- the recommendations for
  the final PY 2010 SIP portfolio were developed. Because the initial meeting to develop the
  recommended portfolio immediately followed and included the same Corporation officials as the
  Late Stage review meeting, there was no need or time to develop documentation similar to the
  other reviews in the PY 2010 SIP GARP process.

  Second, the Late Stage review was intended to inform and facilitate a discussion of how to
  establish an overall SIP portfolio of programs. Unlike the earlier reviews, it was not the basis
  upon which individual applications were advanced or eliminated from the competition. Third,
  the Late Stage review and the discussion which immediately followed were focused on the
  characteristics of an overall portfolio of programs, taking into account such factors as coverage
  of the priority issue areas, geographic distribution of programs, and the extent to which programs
  would serve urban or rural areas. As is true of all of the Corporation's grant competitions, these
  types of considerations are not "strengths or weaknesses" of a particular application; they are
  factors relevant to all applications and only have significance in regard to potential
  configurations of the overall program. Consistent with its general practices, the Corporation did
  not document each of the possible portfolio permutations as part of developing the final
  recommended portfolio, because it is clearly impractical to do so. This is particularly true of the
  PY 2010 SIP grant competition, because there was no pre-existing portfolio of SlF grantees.
  When there is an existing portfolio, a decision in regard to any particular application can have an
  identifiable impact on the characteristics of the overall portfoljo. This marginal effect is easier to
  document and examine. Because the PY 2010 competition was creating the inaugural overall
  SIP portfolio, it was not feasible to develop this type of documentation for each application.



                                                    2
                 Senior Corps   * AmeriCorps * Learn and Serve America
1201 New York Avenue, NW    * Washington, DC 20525 * 202-606-5000 * www.nationalservice.gov
  As pointed out in the OIG's finding, the Corporation considered each of the applications that
  went into the Late Stage review as fully appropriate for funding. In developing a recommended
  portfolio from that pool the Corporation exercised its discretion in how to balance the various
  (and sometimes competing) factors that needed to be considered. The particular circumstances
  of meetings to develop the recommendations made full documentation of the Late Stage review
  impractical and unnecessary. Thus, the Late Stage review was not documented on an
  application-by-application basis. Although not documented in the same manner, the Corporation
  carried out the Late Stage review and its final discretionary award selections with the same rigor
  and dedication as the earlier parts ofthe process, which the OIG has concluded were fairly and
  objectively carried out.

  In addition, the Corporation also believes that the changes made as part of the FY 2011 SIF grant
  competition sufficiently mitigates the OIG's concerns. In FY 2011, the Corporation engaged in
  separate reviews by external and internal reviewers, and documented review results for each
  application. A total of six applications were advanced to the applicant clarification stage. After
  applicant clarification, only one application was not recommended for funding, and the rationale
  for excluding this application was fully documented.

  Finally, regarding the recommendation to develop policies to ensure that decisions regarding
  grant awards are fully documented, the Corporation believes that the policies included in the
  Funding Approval Policy (CPO-2009-01-2011-5) and the procedures specified in the GARP
  Procedures Manual adequately address this recommendation.

  Finding 4 - No formal policy exists for defining the roles and responsibilities of
  Corporation staff in reviewing conflicts of interest for participants in the review process.

  Corporation Response: The Corporation's practices and procedures for reviewing conflicts of
  interest are described in the GARP Procedures Manual; the Office of Grants Policy and
  Operations is responsible for conducting reviews of possible conflicts of interest, and consults
  with the Office of General Counsel as needed. Since the FY 2010 SIF application process, the
  Corporation has drafted a more detailed set of procedures entitled Conflict of Interest Procedures
  for External Peer Review. These procedures will be finalized shortly.

  Finding 5 - No formal policy on Corporation staff contact with potential grantees during
  GARP.

  Corporation Response: The Corporation did have procedures in place which addressed staff
  contact with potential grantees. The GARP Procedures Manual states that the Corporation
  ensures the fairness of its grant competitions, in part, by ensuring that information for all
  applicants and potential applicants is publicly available. Thus all staff contact was through some
  public forum, or made on a public and transparent basis (such as recording technical assistance
  calls and making them available on the Corporation's website). The Corporation will expand
  upon these procedures, and the principles stated by the Chief Operating Officer's February 18,
  2011 pronouncement, in a policy to be adopted in time for the FY 2012 grant competitions.




                                                  3
                Senior Corps   * AmeriCorps * Learn and Serve America
1201 New York Avenue, NW   * Washington, DC 20525 *     202-606-5000   * www.nationalservice.gov
  Finding 6 - Existing Corporation GARP did not include procedures on issuing a NOFA for
  public input.

  Corporation Response: The Corporation has not historically published its draft NOFAs for
  public input and does not antkipate doing so for any programs other than the Social [nnovation
  Fund. Regardless, the Corporation will update Policy CEO-l00-2011-14 (Policies and
  Procedures for Working with the Office of the ~ xecutive Secretariat) and the GARP Procedures
  Manual to reflect its processes for soliciting public input on future draft SIF Notices.

  CC:    William Anderson, Chief Financial Officer
         Rocco Gaudio, Deputy CFO for Grants and Field Financial Management
         Margaret Rosenberry, Office of Grants Management
         Valerie Green, General Counsel
         Idara Nickelson, Acting Chief of Program Operations
         Vielka Garibaldi, Director, Office of Grants Policy and Operations




                                                 4
               Senior Corps   * AmeriCorps * Learn and Serve America
1201 New York Avenue, NW   * Washington, DC 20525 * 202-606-5000 * www.nationalservice.gov
